                                       News From
                            The Office of Inspector General
                        Corporation For National And Community Service




            Grantee Agrees to Repay More Than $250,000

The Council on Aging of Volusia County (FL), Inc., (COA) has agreed to repay
the Corporation for National and Community Service $256,620 in
misappropriated grant funds following an investigation by the Office of Inspector
General.

The OIG investigation found that the COA improperly allowed its Foster
Grandparent Program (FGP) volunteers, who worked in local schools, to take
paid leave when school was not in session. The grantee also charged 100
percent of the director’s salary to the grant when, in fact, that official only devoted
70 percent of overall effort to FGP.

The settlement was announced by Corporation officials on May 29, 2009.

The OIG investigation of COA was conducted by Special Agent Jeffery Morales,
with support from OIG Auditor Shamika Scott.
